     Department of Homeland Security

     ��������������������������



  Intelligence and Analysis’s Management Letter for 

        FY 2013 DHS Financial Statements Audit





OIG-14-70                                    April 2014
                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                              Washington, DC 20528 / www.oig.dhs.gov


                                      APR 21 2014

MEMORANDUM FOR:              Philip Groven
                             Acting Chief of Staff
                             Office of Intelligence and Analysis

FROM:                        Anne L. Richards
                             Assistant Inspector General for Audits

SUBJECT:                     Intelligence and Analysis’s Management Letter for FY 2013
                             DHS Financial Statements Audit

Attached for your information is our final report, Intelligence and Analysis’s
Management Letter for FY 2013 DHS Financial Statements Audit. This report contains
one comment and one recommendation related to an internal control deficiency that
was not required to be reported in the Independent Auditors’ Report on DHS’ FY 2013
Financial Statements and Internal Control over Financial Reporting. Internal control
deficiencies which are considered significant deficiencies were reported, as required, in
the Independent Auditors’ Report, dated December 11, 2013, which was included in the
Department of Homeland Security’s (DHS) fiscal year (FY) 2013 Agency Financial Report.
We do not require management’s response to the recommendation.

We contracted with the independent public accounting firm KPMG LLP (KPMG) to
conduct the audit of the DHS’ FY 2013 financial statements and internal control over
financial reporting. The contract required that KPMG perform its audit according to
generally accepted government auditing standards and guidance from the Office of
Management and Budget and the Government Accountability Office. KPMG is
responsible for the attached management letter dated January 15, 2014, and the
conclusions expressed in it.

Please call me with any questions, or your staff may contact Mark Bell, Deputy Assistant
Inspector General for Audits, at (202) 254-4100.

Attachment
                                 KPMG LLP
                                 Suite 12000
                                 1801 K Street, NW
                                 Washington, DC 20006




January 15, 2014


Office of Inspector General
U.S. Department of Homeland Security, and
Chief Financial Officers
U.S. Department of Homeland Security, Intelligence & Analysis and Operations
Washington, DC

Ladies and Gentlemen:

We have audited the financial statements of the U.S. Department of Homeland Security (DHS or
Department) for the year ended September 30, 2013 (referred to herein as the “fiscal year (FY) 2013
financial statements”), and have issued our report thereon dated December 11, 2013. In planning and
performing our audit of the financial statements of DHS, in accordance with auditing standards generally
accepted in the United States of America and Government Auditing Standards, we considered internal
control over financial reporting (internal control) as a basis for designing our auditing procedures for the
purpose of expressing our opinion on the financial statements. In conjunction with our audit of the
financial statements, we also performed an audit of internal control over financial reporting in accordance
with attestation standards established by the American Institute of Certified Public Accountants.
Intelligence & Analysis (I&A) and Operations (OPS) (I&A/OPS) is a component of DHS. During our
audit, we noted certain matters involving internal control and other operational matters, related to
I&A/OPS, that are presented for your consideration. These comments and recommendations, all of which
have been discussed with the appropriate members of management, are intended to improve internal
control or result in other operating efficiencies. These matters are summarized in the Table of Financial
Management Comments on the following pages. The disposition of each internal control deficiency
identified during our FY 2013 audit – as either reported in our Independent Auditors’ Report, or herein – is
presented in Appendix A. Our findings related to information technology systems have been presented in a
separate letter to the DHS Office of Inspector General, the FLETC Chief Information Officer, and Chief
Financial Officer.
Our audit procedures are designed primarily to enable us to form an opinion on the financial statements
and on the effectiveness of internal control over financial reporting, and therefore may not bring to light all
weaknesses in policies or procedures that may exist. We aim, however, to use our knowledge of
I&A/OPS’s organization gained during our work to make comments and suggestions that we hope will be
useful to you.
We would be pleased to discuss these comments and recommendations with you at any time.
The purpose of this letter is solely to describe comments and recommendations intended to improve
internal control or result in other operating efficiencies. Accordingly, this letter is not suitable for any other
purpose.

Very truly yours,



                                 KPMG LLP is a Delaware limited liability partnership,
                                 the U.S. member firm of KPMG International Cooperative
                                 (“KPMG International”), a Swiss entity.
                               Intelligence & Analysis and Operations
                              Table of Financial Management Comments

                                          September 30, 2013




TABLE OF FINANCIAL MANAGEMENT COMMENTS (FMC)


Comment
Reference    Subject                                                                     Page

FMC 13-01    Ineffective Monitoring of Undelivered Orders                                 2




                                             APPENDIX

Appendix    Subject                                                                      Page

A           Crosswalk – Financial Management Comments to Active Notices of Finding and    3
            Recommendation (NFRs)




                                                     1

                                Intelligence & Analysis and Operations

                                   Financial Management Comments

                                          September 30, 2013




FMC 13-01 – Ineffective Monitoring of Undelivered Orders (Notice of Finding and
Recommendation No. Intelligence & Analysis/Operations (MGA or I&A/OPS) 13-02)

       Based on our review of 13 sample items, we noted that for 5 of the 13 undelivered orders (UDOs)
       tested, the contract/agreement period of performance had ended and the contract/agreement was
       no longer valid.

       Of the five invalid UDOs identified, we determined two were categorized as a “Status 2”,
       indicating that management was currently reviewing the obligation, within management’s UDO
       analysis as of June 30, 2013. However, based on our review of these items, we determined they
       should have been categorized as a “Status 3”, obligation identified to be deobligated, or a “Status
       4”, obligation awaiting close out by another Department within DHS. Therefore, the unused
       balances for these items were not appropriately identified for de-obligation. As such, we
       determined that management’s completion and review of the UDO analysis as of June 30, 2013,
       was not effective.

       Additionally, as of June 30, 2013, management determined that the balance for
       “inactive”/”invalid” UDOs totaled $60 million. During the fourth quarter, management de-
       obligated approximately $16 million and provided the Department with an additional adjustment
       for approximately $12 million as of September 30, 2013. We noted that there was a remaining
       balance of $32 million that represented invalid UDOs that had not been deobligated or adjusted.

       Recommendation:
       We recommend that I&A/OPS work with FLETC and the Procurement Office to ensure that an
       adequate review of obligated balances is performed. To improve this process, I&A/OPS should
       work with FLETC and the Procurement Office to enhance the existing system of monitoring
       contracts with periods of performance that are set to expire.




                                                    2

                                                                                                              Appendix A
                                    Intelligence & Analysis and Operations
                         Crosswalk – Financial Management Comments to Active NFRs
                                              September 30, 2013


                                                                                                   Disposition1
                                                                                                  IAR                 FMC
              NFR
Component                Description                                                    MW         SD        NC       No.
              No.
MGA           13-01      Potential Antideficiency Act Violation                                               L
MGA           13-02      Ineffective Monitoring of Undelivered Orders                                                13-01


1
 Disposition Legend:
IAR	       Independent Auditors’ Report dated December 11, 2013
FMC	       Financial Management Comment
MW	        Contributed to a Material Weakness at the Department level when combined with the results of all other components
SD	        Contributed to a Significant Deficiency at the Department level when combined with the results of all other
          components
NC	        Contributed to Non-Compliance with laws, regulations, contracts, and grant agreements at the Department level when
          combined with the results of all other components
NFR	       Notice of Finding and Recommendation

Cross-reference to the applicable sections of the IAR:
A         Financial Reporting
B         Information Technology Controls and Financial Systems Functionality
C         Property, Plant, and Equipment
D         Budgetary Accounting
E         Entity-Level Controls
F         Liabilities
G         Grants Management
H         Custodial Revenue and Drawback
I         Federal Managers’ Financial Integrity Act of 1982 (FMFIA)
J         Federal Financial Management Improvement Act of 1996 (FFMIA)
K         Single Audit Act Amendments of 1996
L         Antideficiency Act, as amended (ADA)




                                                              3

                               OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix A
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Chief Privacy Officer

   Intelligence and Analysis

   Under Secretary
   Chief of Staff
   Audit Liaison

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate


   �




www.oig.dhs.gov                                                            OIG-14-70
ADDITIONAL INFORMATION

To view this and any of our other reports, please visit our website at: www.oig.dhs.gov.

For further information or questions, please contact Office of Inspector General (OIG)
Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov, or follow us on
Twitter at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
